DATE:          January 21, 1999

FROM:          June Gibbs Brown
               Inspector General

SUBJECT:       Monitoring the Accuracy of Hospital Coding (OEI-01-98-00420)

TO:	           Nancy-Ann Min DeParle
               Administrator
               Health Care Financing Administration

Since the inception of Medicare’s prospective payment system (PPS) in 1984, the Office of
Inspector General has played an active role in monitoring diagnosis related group (DRG)
upcoding. In this final memorandum report, I would like to share with you some concerns that
have evolved out of our recent work in this area. While we understand that the Health Care
Financing Administration (HCFA) is taking steps to increase monitoring of DRG coding, we
elaborate here on our areas of concern and offer some options that HCFA could take to
improve monitoring and oversight of DRG coding.

Background

        In our recent report, “Using Software to Detect Upcoding of Hospital Bills”
        (OEI-01-97-00010), we examined the ability of commercially available software to
        identify DRG upcoding through analysis of electronic claims data. We used two
        software products to identify 299 hospitals with a high suspected rate of upcoding. We
        then used accredited medical records professionals to perform a blinded DRG
        validation on a sample of over 2,600 claims from 50 of these hospitals and a control
        group of 20 hospitals.

        In the course of conducting this study, we developed serious concerns about the
        potential for abuse of the DRG system through upcoding and about HCFA’s oversight
        of the accuracy of DRG coding. Specifically we found that, although the hospital
        payment system is functioning well as a whole, the system has significant vulnerabilities
        to upcoding that can easily be avoided. We also found that, despite these
        vulnerabilities, HCFA is not performing routine, ongoing monitoring and analysis of
        DRG coding to detect problematic DRGs, hospitals, and coding situations that require
        administrative, educational, or law enforcement intervention.

Findings

        The DRG system is vulnerable to abuse by providers who wish to increase
        reimbursement inappropriately through upcoding, particularly so within certain
        DRGs. Our analysis found noticeable, detectable, and curable upcoding abuses among
        providers and within specific DRGs.
Page 2 - Nancy-Ann Min DeParle

   <	 In a focused sample from a group of 299 hospitals that computer software identified as
      high upcoders, we found that an average of 11 percent of DRG bills submitted during
      1996 were upcoded, versus 5 percent of bills among a control sample of hospitals.

                                 Identifying Hospitals that Upcode
                                                            Average                 Average
                                                          Upcoding Rate          Downcoding Rate
    OIG Experimental sample - hospitals with
                                                               11.4%                     5.1%
    a high predicted rate of upcoding (n=50)
    OIG Control sample - hospitals without a
                                                               5.2%                      3.9%
    high predicted rate of upcoding (n=20)
    Source: Office of Inspector General, “Using Software to Detect Upcoding of Hospital Bills”
    (OEI-01-97-00010), August 1998.


      The average rate of upcoding in the control sample of hospitals (those without a high
      predicted rate of upcoding) was not statistically different from the average downcoding
      rate. However, among hospitals that the software predicted would have a high rate of
      upcoding, the average upcoding rate was more than twice that of downcoding. The
      difference between upcoding and downcoding in these hospitals suggests intentional
      abuse of the DRG system by some providers.

   <	 Using data from both our focused review and the more broadly representative 1996
      DRG validation performed by HCFA’s clinical data abstraction centers (CDAC), we
      found that certain DRGs are particularly susceptible to upcoding.

                                  Three Highly Vulnerable DRGs
                                   OIG Experimental            OIG Control               CDAC
                                       Sample                    Sample                  Sample
                                   Up-         Down-        Up-        Down-       Up-           Down-
                                   coded       coded        coded      coded       coded         coded
     DRG 79:                       37.7%       0.0%         18.5%      0.0%        11.0%         0.7%
     Respiratory Infections        (n=60)      (n=0)        (n=5)      (n=0)       (n=48)        (n=3)

     DRG 416:                      21.2%       0.0%         16.7%      0.0%        13.3%         1.1%
     Septicemia                    (n=14)      (n=0)        (n=3)      (n=0)       (n=49)        (n=4)

     DRG 14: Specific              10.1%       0.0%         6.7%       0.0%         3.5%         0.4%
     Cerebrovascular               (n=10)      (n=0)        (n=2)      (n=0)       (n=24)        (n=3)
     Disorders

    Claims billed for these three DRGs show a clear pattern that exemplifies the upcoding seen
    in a group of over half a dozen DRGs we examined. These DRGs were upcoded
Page 3 - Nancy-Ann Min DeParle

      disproportionately, especially by our experimentally identified upcoding hospitals, but
      also among hospitals from the general population represented by the CDAC review and
      our control sample.

      The HCFA does not routinely analyze readily available billing and clinical data
      that could be used to proactively identify problems in DRG coding.

   <	 The HCFA does not routinely analyze data from the annual validation of DRG coding
      performed by its Clinical Data Abstraction Centers.

      Since 1995, HCFA has used two specialized contractors called Clinical Data
      Abstraction Centers to validate the DRGs on an annual national sample of over 20,000
      claims billed to Medicare. On a monthly basis, the CDACs report detailed data on each
      claim reviewed to HCFA’s Office of Clinical Standards and Quality. These data
      include original and validated diagnostic coding, original and validated DRGs, and
      reasons for any variance between the DRGs. The purpose of this validation effort is to
      provide HCFA with insight as to the accuracy of DRGs billed to Medicare.

      However, we found that HCFA performs no routine, ongoing analysis of CDAC data.
      In our interviews with staff at the two HCFA components that have responsibility for
      DRGs – the Office of Clinical Standards and Quality, and the Center for Health Plans
      and Providers – staff were unable to identify any routine monitoring and analysis of
      CDAC data. In our review of HCFA’s instructions to the peer review organizations
      (PROs), contractors that have statutory responsibility for DRG oversight, we found no
      instructions advising them to perform regular analysis of CDAC data.

      Yet we believe that analysis of CDAC data can be of great value to HCFA in
      overseeing the accuracy of DRG coding. For example, in HCFA’s 1996 DRG
      validation, the CDACs found a 4 percent upcoding rate with estimated net
      overpayment of $183 million. Some may suggest that overpayments of $183 million in
      an $80 billion program (less than one-quarter percent) indicate that the DRG payment
      system does not have major problems with upcoding and warrants no further analysis.
      However, our analysis presented above shows that by digging below the immediate
      surface, upcoding problems are readily apparent.

   <	 The HCFA does not routinely analyze data from hospitals, despite the fact that these
      data are ideally suited for monitoring and analysis of DRGs.

      The HCFA maintains valuable clinical, demographic, and administrative data that form
      the underlying basis of each of the over 10 million DRG-based claims billed to
      Medicare each year. Data for each hospitalization include diagnosis codes, procedure
      codes, beneficiary demographics, admission and discharge detail, cost reporting data,
      and hospital identifier for linkage with provider demographics. Whether used on its
      own to monitor billing patterns and trends or used to further explore potential problem
      areas identified within CDAC data, data from hospital claims can provide valuable
      information to assist in HCFA’s oversight of DRG coding.
Page 4 - Nancy-Ann Min DeParle

      However, we found that HCFA does not make routine use of data from hospital claims
      for monitoring and analysis of DRG coding. In our interviews with staff at both
      HCFA’s Office of Clinical Standards and Quality and its Center for Health Plans and
      Providers, staff were unable to identify any routine monitoring and analysis of DRG
      billing data. Interviews at HCFA’s Program Integrity unit, within the Office of
      Financial Management, revealed that HCFA conducts some limited analysis of billing
      data. However, this analysis is done on a very broad level, primarily to identify
      coverage issues.

      We also reviewed HCFA’s current instructions to the Medicare PROs. We found no
      instructions to the PROs advising them to perform any routine monitoring and analysis
      of DRG coding, despite the fact that PROs already have a complete set of inpatient
      billing data provided to them by HCFA. In fact, HCFA staff told us that the PROs
      were instructed not to do “coding projects” within their current contract. We did find
      that PROs are involved in sporadic activity around DRG oversight; however, this
      activity often is in support of an OIG investigation.

Recommendation

      The HCFA should perform routine monitoring and analysis of hospital billing
      data and clinical data to proactively identify aberrant patterns of upcoding.

      The HCFA is taking steps toward increased monitoring for DRG upcoding. For
      example, the agency is considering an increased role for monitoring DRG upcoding
      within the next round of contracts with the Medicare PROs. We offer our
      recommendation within this context. The following approaches are examples that the
      agency may wish to consider as it develops its monitoring and analysis approach to
      detect upcoding.

      <	   As a starting point, the agency could routinely analyze the DRG validation data
           that it receives from the clinical data abstraction centers with which it contracts.

      <	   The agency could opt to organize its monitoring effort in a variety of ways. It
           might choose to use its own staff; alternatively, it might determine that the
           preferable route is to contract with an outside party with which it currently has a
           contract, such as the fiscal intermediary fraud units or the peer review
           organizations; or it might work with a new entity under the Medicare Integrity
           Program.

      <	   The agency could use a variety of analytical approaches, such as examining claims
           data for patterns, trends, change pairs, and spikes in DRG billing volume. This
           analysis also could include examination of coding validation data for trends in
           miscoding as a way to detect problem DRGs, providers, or coding situations.

      <	   The agency could establish criteria, policies, and procedures to make referral for
           collection to the Office of Inspector General or to fiscal intermediaries, as
           appropriate, from providers who are deliberately exploiting and abusing the system
           through upcoding claims for payment.
Page 5 - Nancy-Ann Min DeParle

Comments on the Draft Report

The HCFA concurs with our recommendation that it perform routine monitoring and analysis
of hospital billing and clinical data to proactively identify aberrant patterns of upcoding. In its
comments, HCFA specified the actions that it will take to reduce DRG upcoding. These
actions are:

<	     Establish a payment error prevention program in the upcoming PRO 6th Scope of
       Work to focus on reducing inappropriate DRG payments.

<	     Expand the size and content of the annual CDAC DRG validation and use it to identify
       trends in coding practices and to point out problem areas.

<	     Pilot a program in which a selected Medicare fiscal intermediary will use PRO/CDAC
       data to identify aberrancies and develop cases for referral to law enforcement.

<      Procure a statistical analysis contractor to conduct statistical and trend analysis.

We applaud the steps that HCFA will take to increase monitoring and oversight of the
accuracy of DRG coding. We look forward to working with HCFA in the future as we
continue our work in this area.

The full text of HCFA’s comments on our draft report appears on the following pages.

In Closing

Our work in DRG coding is continuing. We are currently developing reports on specific
DRGs to illustrate techniques that can be used to detect aberrant upcoding situations. We look
forward to continuing our work with you to eliminate DRG upcoding from the Medicare
program and to ensure that Medicare pays accurately for all services delivered.

If you have any questions, you may call me or George Grob, Deputy Inspector General for
Evaluation and Inspections, or have your staff call Mary Beth Clarke at (202) 619-2481.
